CITY AND COUNTY OF SAN FRANCISCO

OFFICE OF THE CITY ATTORNEY

DENNIS J. HERRERA
City Attorney

SARA J. EISENBERG
Chief of Strategic Advocacy
Direct Dial:
Email:

(415) 554-4633
Sara.Eisenberg@sfcityatty.org

February 2, 2021
Jeffrey Atkins
Deputy Clerk of the Court
Supreme Court of the United States
One First St., NE
Washington, DC 20543
Re:

USCIS, et al. v. CCSF, et al.; No. 20-962
Request for extension of time

Dear Mr. Atkins:
I am counsel for respondent City and County of San Francisco in this matter. The court
of appeals issued its decision in this case on December 2, 2020, and petitioners filed a petition
for writ of certiorari on January 21, 2021. Responses are currently due on February 22, 2021.
Pursuant to Rule 30.4, respondents respectfully request that the time for filing a response be
extended by 30 days, to and including March 24, 2021.
This is respondents’ first request for an extension of time. Good cause exists for the
requested extension. I represent the City and County of San Francisco in several other matters
that will require my attention in the coming weeks. In addition, the response must be reviewed
by several attorneys within the San Francisco City Attorney’s Office, as well as by counsel for
co-plaintiff/respondent in the Office of the County Counsel for the County of Santa Clara. An
extension of time will allow for that internal review, and will also facilitate preparation of a more
thorough response that will better assist the Court.
Thank you for your kind consideration of my request.
Very truly yours,
DENNIS J. HERRERA
City Attorney
/s/ Sara Eisenberg
SARA J. EISENBERG
Chief of Strategic Advocacy
cc: Acting Solicitor General Elizabeth Prelogar
Counsel for Petitioners

FOX PLAZA ∙ 1390 MARKET STREET, 7TH FLOOR ∙ SAN FRANCISCO, CALIFORNIA 94102-5408
RECEPTION: (415) 554-3800 ∙ FACSIMILE: (415) 437-4644

